No. 19-635
IN THE

DONALD J. TRUMP,
President of the United States,
Petitioner,
v.
CYRUS R. VANCE, JR., in his official capacity as
District Attorney of the County of New York, et al.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Electronic Privacy Information Center (EPIC) and Seventeen
Technical Experts and Legal Scholars in Support of Respondents complies
with the word limitations set forth by the Rules of the Court, and contains
6,323 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.
/s/ Marc Rotenberg
Marc Rotenberg
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave. NW
Washington, DC 20036
(202) 483-1140
rotenberg@epic.org

